Report No. D-2011-107                  September 9, 2011




     Improvements Needed in Procedures for Certifying
       Medical Providers and Processing and Paying
            Medical Claims in the Philippines
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations

DCIS                          Defense Criminal Investigative Service
DEERS                         Defense Enrollment Eligibility Reporting System
DFAS                          Defense Finance and Accounting Service
EFT                           Electronic Funds Transfer
PhilHealth                    Philippine Health Insurance Corporation
TAO                           TRICARE Area Office
TGRO                          TRICARE Global Remote Overseas
TMA                           TRICARE Management Activity
TOP                           TRICARE Overseas Program
WPS                           Wisconsin Physicians Service
                                         INSPECTOR GENERAL 

                                        DEPARTMENT OF DEFENSE 

                                          400 ARMY NAVY DRIVE 

                                     ARLINGTON, VIRGINIA 22202-4704 




                                                                                    SEP     9 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE
                 (HEALTH AFFAIRS)

SUBJECT: 	 Improvements Needed in Procedures for Celiifying Medical Providers and Processing and
           Paying Medical Claims in the Philippines
           (Report No. D-2011-107)

We are providing this report for review and comment. This report discusses opportunities to improve
controls over procedures for ce11ifying medical providers treating military retirees and their dependents
in the Philippines and procedures for processing and paying Philippine medical claims. We identified
these internal control weaknesses while providing audit assistance to the Defense Criminal Investigative
Service. We considered management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that reconunendations be resolved promptly. The Assistant Secretary of
Defense (Health Affairs) was responsive to Recommendations A.l, A.2, B.3 and B.4. The Assistant
Secretary of Defense (Health Affairs) was not responsive to Reconunendations B.l and B.2. We request
additional comments on Recommendations B.l and B.2 by October 11,2011.

If possible, send a .pdf file containing your comments to audyorktown@dodig.mil. Copies of the
management conUllents must have the actual signature of the authorizing official. We are unable to
accept the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8866
(DSN 664-8866).



                                           {UL~~
                                             Alice F. Carey           r
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-107 (Project No. D2009-D000LF.0261.000)	                    September 9, 2011


                       Results in Brief: Improvements Needed
                       in Procedures for Certifying Medical
                       Providers and Processing and Paying
                       Medical Claims in the Philippines

                                                       beneficiaries’ addresses before paying medical
What We Did                                            claims, TMA personnel cannot be sure that
Our objectives were to evaluate management             payments reach the intended beneficiaries and
controls over procedures for certifying medical        may unintentionally facilitate attempts to
providers and for processing and paying                defraud TRICARE through erroneous claims.
Philippine medical claims. While TRICARE
Management Activity (TMA) has implemented              What We Recommend
numerous initiatives to control costs and              We recommend that the Deputy Director, TMA,
enhance anti-fraud controls in the overseas            improve oversight of contractor requirements
arena, we identified additional opportunities to       for certification of medical professionals and
improve the certification and claims payment           medical facilities treating military retirees and
process in the Philippines.                            their dependents in the Philippines. We also
                                                       recommend improvements over procedures for
What We Found                                          processing medical claims.
TMA needs to improve procedures for
certifying medical providers in the Philippines        Management Comments and
and for processing and paying medical claims.          our Response
During our review, we found the following:
                                                       The Assistant Secretary of Defense (Health
•	 the contractor responsible for certifying
                                                       Affairs) was responsive to our recommendations
    medical providers did not provide adequate
                                                       to improve oversight of contractor requirements
    documentation to support 28 of
                                                       for Philippine provider certification. However,
    63 certifications of medical providers; and
                                                       the Assistant Secretary of Defense (Health
•	 claims processing personnel did not verify          Affairs) was not fully responsive to our
    beneficiaries’ addresses before issuing            recommendations for improvements over
    payment.                                           procedures for processing and paying medical
                                                       claims and disagreed with our recommendations
These weaknesses occurred because TMA                  to verify beneficiaries’ addresses and to give
personnel did not adequately oversee the               beneficiaries the option of receiving claims
contractor performing the certifications and did       payment by Electronic Funds Transfer. Because
not require the claims processing contractor to        of the history of prevalent mail fraud in the
verify beneficiaries’ addresses. As a result,          Philippines, these controls are necessary to help
TMA paid for inadequate certification packages,        ensure that the payments reach beneficiaries.
and they do not have adequate assurance that           Therefore, we request that the Assistant
“certified” medical providers actually exist or        Secretary of Defense (Health Affairs) reconsider
that beneficiaries always receive medical care         his position and provide additional comments
from licensed medical professionals at                 by October 11, 2011. Please see the
accredited facilities. Further, by not verifying       recommendations table on page ii.
                                                   i
Report No. D-2011-107 (Project No. D2009-D000LF.0261.000)        September 9, 2011

Recommendations Table

         Management                    Recommendations      No Additional Comments
                                      Requiring Comment              Required
Assistant Secretary of Defense    B.1 and B.2               A.1, A.2, B.3, and B.4
(Health Affairs)



Please provide comments by October 11, 2011.




                                               ii
Table of Contents

Introduction                                                                     1


      Objectives                                                                 1

      TMA Initiatives to Improve Overseas Claims Payment                         1

      Background                                                                 1

      Review of Internal Controls                                                3


Finding A. Documentation Did Not Support the Certification of Medical

Providers Treating Military Retirees and Their Dependents in the Philippines     4


      Documentation Supporting the Qualifications of Medical Providers Needs

            Improvement                                                          4

      TMA Personnel Should Improve Contract Oversight                            5

      Payment for Non-Performance and Lack of Assurance That Medical

            Providers Are Qualified                                              6

      TMA’s Initiative to Establish a Network of TRICARE-Approved

            Providers                                                            6

      Recommendations, Management Comments, and Our Response                     7



Finding B. Policy and Procedures for Processing and Paying          

Medical Claims Need Improvement                                                  9


      Claims Processor Did Not Verify Addresses Before Issuing Payment           9

      TMA Allows WPS to Send Payments to Unverified Addresses                   10 

      TMA Did Not Verify Addresses, Which May Facilitate 

             Efforts to Defraud TRICARE                                         10 

      TMA Should Establish Procedures to Educate Medical Providers on Proper

             Procedures for Filing Claims                                       11 

      TMA Presence in the Philippines Would Be Beneficial                       12 

      Recommendations, Management Comments, and Our Response                    12 


Appendix                                                                        16


      Scope and Methodology                                                     16 

      Use of Computer-Processed Data                                            16 

      Prior Coverage                                                            17 


Management Comments

      Assistant Secretary of Defense (Health Affairs)                           18

Introduction
Objectives
We conducted this audit as a result of internal control deficiencies identified while
supporting the Defense Criminal Investigative Service (DCIS) and the U.S. Attorney’s
Office, Western District of Wisconsin. The objectives were to evaluate management
controls over procedures for certifying medical providers treating military retirees and
their dependents in the Philippines and to review selected procedures for processing and
paying Philippine medical claims.

TMA Initiatives to Improve Overseas Claims Payment
TRICARE Management Activity (TMA) initiated numerous controls to resolve
deficiencies identified internally and by Department of Defense Office of Inspector
General investigators and auditors. TMA’s Program Integrity Office and the leadership
of the TRICARE Overseas Program Office routinely met to discuss and advance
procedures designed to control costs and enhance anti-fraud controls in the overseas
arena. TMA personnel implemented several controls for processing and paying overseas
claims including: proof of payment requirements for overseas beneficiaries submitting
claims, establishing country-specific fee schedules for the Philippines and Panama,
requiring beneficiaries to obtain their medications from TRICARE certified retail
pharmacies, and eliminating the TRICARE imposed Philippine Provider Electronic Fund
Transfer restrictions. TMA personnel should be commended for the above initiatives.
This report identifies additional opportunities to improve the provider certification and
claims payment processes.

Background
The TRICARE Overseas Program (TOP) is the Department of Defense’s program for the
delivery of medical services overseas (all locations outside of the 50 United States and
the District of Columbia). TOP provides medical coverage for all overseas beneficiaries,
including active duty Service members, eligible reserve Component personnel, active
duty family members, retired military and their family members, and transitional
survivors. 1 TOP also provides medical coverage for stateside beneficiaries residing in
the United States who receive medical care at an overseas location. All beneficiaries
must be eligible for TRICARE as verified through the Defense Enrollment Eligibility
Reporting System (DEERS). TOP consists of three overseas areas: TRICARE Europe,
Pacific, and Latin America/Canada. A TRICARE Area Office (TAO) manages each of
these areas. TAO-Pacific has responsibility for the Philippines. As of April 2010, there
were 10,612 military retirees and their dependents residing in the Philippines. This
accounted for approximately 9 percent of the total overseas population of military retirees
and their dependents.




1
    Transitional survivors are eligible surviving family members whose sponsor died while on active duty.

                                                      1

TRICARE Area Office Responsibilities
TRICARE Policy Manual, Chapter 12, Section 1.1, paragraph II.A, “TOP Overseas TAO
Directors,” August 2002, states that the TAO directors are responsible for planning and
delivering services to meet the health needs in their area of responsibility to include
oversight and administration of contracted tasks for the TRICARE Global Remote
Overseas (TGRO) contracts and for ensuring the certification of the host nation’s medical
providers.

TRICARE Global Remote Overseas Philippines Certification
Program Contractor
TRICARE contracted with International SOS, the TGRO contractor, to provide a
managed health care system to deliver benefits to eligible beneficiaries in remote
overseas areas under the TOP. As part of this contract, International SOS is responsible
for establishing a network of certified medical providers for active duty Service members
and their dependents. The certifications of the network providers should be performed in
accordance with section 199.6, title 32, United States Code (32 U.S.C. § 199.6 [2005])
and the guidelines established in TRICARE Policy and Operations Manuals.

Non-Network Medical Provider Certifications
For the Philippines, International SOS personnel have the additional task of certifying
non-network providers (non-TGRO) when requested by Wisconsin Physicians Service
(WPS), TRICARE’s overseas claims processing sub-contractor (under Humana and later
International SOS). In 2002, TRICARE implemented the Philippines Certification
Program to verify that non-TGRO medical professionals and medical facilities in the
Philippines existed and to certify them as authorized providers for TRICARE retirees and
their family members. The non-network medical provider certification process begins
when WPS receives a claim from a Philippine provider who has not undergone the
certification process. WPS personnel assign a provider number to the provider and then
send a certification request to International SOS through Microsoft SharePoint, a real-
time system for updating and viewing the certification listing. According to the contract,
the non-network provider certifications include confirming the existence of a physical
building through onsite reviews, verifying the credentials of the facility or provider,
assessing the adequacy and capability of the facility or provider for providing patient
care, and ensuring that the credentials conform to the requirements of the Philippine
government and its licensing boards. Based on the results of the certification,
International SOS updates the provider’s name and address, whether the provider is a
network or non-network provider, the provider’s specialty, reason for denial (if
applicable), and date of certification or denial. WPS personnel use this data to make or
deny payments to the applicable provider. International SOS personnel upload only the
results, not the actual certification packages, into SharePoint.

Philippine Government Licensing Boards
The Philippine government has two agencies for the licensing of medical providers and a
quasi-governmental agency to administer the medical care provided to the Philippine
public. The Philippine Department of Health, Bureau of Health Facilities and Services,

                                            2

regulates and licenses hospitals, laboratories, pharmacies, and other medical facilities.
The Philippine Professional Regulation Commission regulates physicians, nurses,
medical technologists, physical therapists, occupational therapists, and other medical
professionals. The local governments regulate medical facilities with fewer than six beds
and require them to have a mayor’s permit or local business permit to operate. The
Philippine Health Insurance Corporation (PhilHealth) is the Philippines’ government
corporation that is intended to ensure sustainable, affordable, and progressive social
health insurance for all Filipinos. According to the PhilHealth Web site, PhilHealth
accredits medical professionals and medical facilities participating in the National Health
Insurance Program to ensure that medical services rendered to Filipinos are of expected
quality.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures (MICP),”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness at TMA concerning the review of the Philippine onsite verification and
documentation supporting the certification of medical providers treating military retirees
and their dependents in the Philippines. We also identified an internal control weakness
with regard to processing and paying medical claims. We discuss these issues in detail in
the Finding sections of the report. We will provide a copy of this report to the senior
TMA official responsible for internal controls.




                                             3

Finding A. Documentation Did Not Support
the Certification of Medical Providers
Treating Military Retirees and Their
Dependents in the Philippines
In support of a DCIS investigation, we obtained certification packages for physicians and
medical facilities treating military retirees and their dependents in the Philippines. Based
on a limited review, we found that 28 of 63 certification packages prepared by
International SOS lacked key documents, such as current medical licenses or completed
inspection forms. This occurred because TMA personnel did not provide adequate
contract oversight. As a result, TMA paid for inadequate provider certifications and had
no assurance that the providers granted certification were properly qualified and had the
resources needed to treat U.S. retired military and their dependents in the Philippines.

Documentation Supporting the Qualifications of Medical
Providers Needs Improvement
The contractor responsible for certifying medical providers treating military retirees and
their dependents did not provide adequate documentation to support that the providers
were properly licensed and had the resources necessary to treat TRICARE beneficiaries
in the Philippines. We obtained 72 certification packages from the contracting officer
responsible for monitoring the International SOS contract. These packages consisted of
63 approved certifications, 7 denied certifications, and 2 that were previously certified
                                                 with no need for additional certification.
    Twenty-eight of the sixty-three certified    We reviewed the 63 certified packages to
      inspection packages lacked current         determine their adequacy and
  medical licenses or completed inspection       completeness. To determine if the
                    forms.                       inspection packages were adequate, we
looked at whether they included inspection forms confirming the provider’s existence,
copies of Philippine Department of Health licenses for larger medical facilities, copies of
local permits for smaller clinics, and copies of Philippine Professional Regulation
Commission credentials for physicians. Twenty-eight of the sixty-three certified
inspection packages lacked current medical licenses or completed inspection forms. Ten
of the twenty-eight inadequate inspection packages lacked both a completed inspection
form and a valid license or permit.

To document on-site visits confirming the existence of medical professionals and medical
facilities in the Philippines, the TRICARE Global Remote Oversight Plan required
International SOS’s inspectors to complete an inspection form. Inspectors use the form
to record provider’s location, licensing information, and various items to be observed in
medical facilities such as medical equipment, number of staff, and patient volume. Of
the 63 certified packages that we reviewed, 16 either did not have the inspection form or
the inspection form was incomplete. Confirming the physical existence of a medical
facility ensures that the facility exists and has the capability to perform the billed

                                             4

services; however, these inspection documents alone do not verify that the medical
professional or medical facilities are legitimate and accredited. To verify that medical
providers and medical facilities are qualified, licenses or permits must be verified.

According to the contract, International SOS personnel should perform onsite
credentialing reviews for all medical professionals and medical facilities. The credentials
                                              are required to conform to the requirements
   International SOS personnel certified      of the Philippine government. Of the
     18 packages without the required         63 packages that we reviewed, International
    license or permit (10 packages), or       SOS personnel certified 18 packages without
     with an expired license or permit        the required license or permit (10 packages),
               (8 packages).                  or with an expired license or permit
                                              (8 packages).

TMA Personnel Should Improve Contract Oversight
TMA personnel did not adequately monitor the contractor’s performance. No one in
TMA, including TAO-Pacific, monitored the adequacy of the non-TGRO certification
packages. According to the contract Statement of Work, International SOS should have
provided WPS the results from the onsite verifications, including copies of the current
licenses/credentials and the medical providers’ name and business addresses. However,
neither WPS nor the contracting officer responsible for monitoring the contract received
the certification packages.

In November 2008, after we raised the issue with TMA and WPS personnel, TMA
completed a Contracting Officer’s Determination concerning Philippine provider
certification documents. The contracting officer agreed that International SOS did not
send the certification packages to WPS. However, the contracting officer determined that
it was not necessary for International SOS to provide WPS with the certification
documents and that doing so would increase the cost. The contracting officer also stated
that TAO-Pacific performed, as part of regularly scheduled Technical Reviews, a review
of certification packages. We asked TAO-Pacific what they did to ensure that the
certification packages International SOS developed were complete and performed in
accordance with the contract. TAO-Pacific personnel stated that they concentrated their
reviews on Philippine TGRO Network providers. After our inquiry, TAO-Pacific
personnel performed a review of 16 non-TGRO certification packages and visited
7 providers in September of 2009. TAO-Pacific personnel believed that the International
SOS certification effort was compliant with the contract requirements for the certification
packages that they reviewed. While TAO-Pacific personnel did perform a review after
our initial inquiry, they could not provide any documentation showing that they
conducted previous reviews. Considering TMA determined that International SOS
should not be required to send completed certification packages to WPS, it is essential
that TMA perform quality assurance testing of the non-TGRO certification process.




                                             5

Payment for Non-Performance and Lack of Assurance
That Medical Providers Are Qualified
According to TMA records, DoD paid $1.2 million for onsite verification and credential
reviews from September 2003 to February 2009. During this time frame, TRICARE paid
International SOS for Philippine certifications based on hourly rates for doctors,
                                                supervisors, and field coordinators. TMA
      If TMA personnel do not ensure the        implemented the onsite verification reviews
    adequacy of certification packages, they    to confirm the existence of health care
       have no assurance that “certified”       facilities and providers with the added
    medical providers actually exist or that    benefit of determining the qualifications of
   military retirees and their dependents are   medical providers treating military retirees
     receiving medical care from licensed
                                                and their dependents in the Philippines.
      medical professionals at accredited
                    facilities.
                                                Failure to monitor contract performance and
                                                ensure that the certification packages were
complete and accurate can result in improper payment to International SOS for non­
performance of contract requirements. If TMA personnel do not ensure the adequacy of
certification packages, they have no assurance that “certified” medical providers actually
exist or that military retirees and their dependents are receiving medical care from
licensed medical professionals at accredited facilities.

TMA’s Initiative to Establish a Network of TRICARE-
Approved Providers
TMA personnel implemented many internal controls over the past decade and continue to
make process improvements to curtail medical fraud. However, regardless of initiatives
to improve controls, Philippine claims continue to rebound, and prosecuting overseas
fraud has become increasingly challenging. TMA officials are currently working on an
initiative to implement a Philippine network demonstration project for non-TGRO
medical providers. TMA submitted a decision paper to the Assistant Secretary of
Defense (Health Affairs) for approval. If approved, it will be followed by coordination
and publication of a demo notice before implementation. Key elements of the proposed
demonstration include the following.

   •	 The overseas contractor will establish an approved list of network providers and
      inpatient facilities.
   •	 The overseas contractor will select providers based on quality/accurate claims
      submission/cost.
   •	 Waivers will be provided for emergency situations.
   •	 TRICARE will reimburse providers who agree to join the authorized list at the
      lower of the billed charges or the established fee schedule.
   •	 Beneficiaries accessing providers on this authorized list will continue to be
      responsible only for their cost shares/deductibles.
   •	 TRICARE will not reimburse beneficiaries accessing non-authorized providers
      and the beneficiaries will be responsible for the billed charges.
   •	 TRICARE may terminate providers from network without cause or appeal.

                                             6

Establishing a network appears to be an effective measure to address many of the medical
issues concerning military retirees and their dependents in the Philippines.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Deputy Director, TRICARE Management Activity:

      1. Establish oversight procedures to ensure that the TRICARE Global
Remote Overseas contractor performs certifications consistent with the contract
and Philippine law and at a minimum:

              a. Verifies that all certified providers have the necessary equipment,
supplies, and staff;

                b. Identifies the services that medical facilities are licensed to
provide; and

               c. Obtains current copies of Department of Health licenses, mayor’s
permits, local permits, or Professional Regulation Commission licenses.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) recognized the importance of
improving the certification process in the Philippines. He stated that TMA issued a
contract modification to the TOP contract to improve the certification process in the
Philippines. The Assistant Secretary of Defense (Health Affairs) further stated that
changes were made in how providers are educated, the requirement for additional
provider information, and making certification records available electronically. See page
18 for full text of the management comments.

Our Response
The comments of the Assistant Secretary of Defense (Health Affairs) are responsive, and
no further comments are required.

        2. Require the TRICARE Area Office Pacific to perform quality assurance
testing on the Philippine provider certification packages on a regularly scheduled
basis.

Assistant Secretary of Defense (Health Affairs) Comments
According to the Assistant Secretary of Defense (Health Affairs), TMA has initiated
regular site visits to review certification files at the contractor’s office in the Philippines.
The Assistant Secretary of Defense (Health Affairs) stated that, according to a May 2011
review of certified individual and institutional provider files, TMA found the contractor’s
Philippines certification process to be compliant with contract requirements. See page 18
for full text of the management comments.

                                               7

Our Response
The comments of the Assistant Secretary of Defense (Health Affairs) are responsive, and
no further comments are required.




                                           8

Finding B. Policy and Procedures for
Processing and Paying Medical Claims Need
Improvement
WPS personnel mailed checks for medical claims to the addresses on the claims, which
may not have been the beneficiaries’ correct addresses. This occurred because TMA did
not require the claims processor to verify beneficiaries’ addresses. By not requiring that
beneficiaries’ addresses be verified before payment, TMA cannot ensure that payments
reach the legitimate beneficiaries. Further, TMA may unintentionally facilitate attempts
to defraud TRICARE through erroneous claims. Verifying beneficiaries’ addresses will
provide a partial solution to this issue; however, TMA personnel should also pursue the
use of Electronic Funds Transfer (EFT) to pay for beneficiaries’ claims. In addition to
requiring beneficiary address verification, educating medical providers on the proper
procedures for filing claims and establishing a TMA presence in the Philippines would
improve the medical claims payment process.

Claims Processor Did Not Verify Addresses Before
Issuing Payment
WPS personnel did not verify beneficiaries’ addresses before sending checks for claims
reimbursement. WPS maintained beneficiaries’ addresses in their Sponsor Patient
Information Update System. WPS personnel updated the addresses in the system based
on incoming claims. According to WPS officials and the contracting officer, when a
                                             beneficiary claim came in, processing staff
        WPS personnel did not verify         did not verify the address on the claim to
  beneficiaries’ addresses before sending    the address in DEERS. Further, if a
     checks for claims reimbursement.        beneficiary submitted a claim with an
                                             address that was different from the address
in the Sponsor Patient Information System, WPS did not verify the address, but updated
the address in the system with the new address. If the claim is approved, the check is
mailed to the new address on the claim rather than the previous address in their system or
the address in DEERS.

To illustrate the potential problem with the current process, we found a claim record that
included a letter from a beneficiary stating that a postal worker had given her a letter
from WPS with an address that was not her address and had never been her address. The
WPS letter stated she must repay four claims, valued at approximately $17,000. Because
the four incoming claims had three different addresses, WPS sent checks for these claims
to three locations. None of the addresses matched the one the beneficiary used on her
letter to WPS. WPS personnel never compared the addresses on the claims with the
address in DEERS.

In addition, DoD OIG Report No. D-2008-045, “Controls Over the TRICARE Overseas
Healthcare Program,” February 7, 2008, discussed a scheme where suspects acting as
eligible beneficiaries submitted false claims and requested that the checks be mailed to a

                                             9

new address. The procedure of updating the Sponsor Patient Information System when a
claim is submitted with an address that is different from the address in the system,
without verifying the validity of the new address, allows potentially fraudulent claims
with fictitious addresses to be paid.

TMA Allows WPS to Send Payments to Unverified
Addresses
Neither TRICARE policy nor the contract requires WPS to verify the address on a
beneficiary submitted medical claim with the address in the Sponsor Patient Information
Update System or DEERS. The TRICARE Operations Manual 6010-56-M, February 1,
2008, Chapter 24, Section 9, paragraph 6.1, addresses missing or discrepant information,
but is unclear on the requirement to verify a beneficiary’s address in DEERS or to resolve
discrepancies between an address on a claim and the address in the Sponsor Patient
Information Update System. The contract requires WPS to interface with DEERS only to
determine beneficiary eligibility and enrollment and does not require verification of the
beneficiary’s address through DEERS. Also, the current policy does not require that
variations between the address on the claim and the address in the Sponsor Patient
Information Update System be resolved before payment. TMA policy does not require
WPS to obtain verification from the beneficiary that the “new” address is valid when an
address on a claim differs from the address in the Sponsor Patient Information Update
System.

TMA Did Not Verify Addresses, Which May Facilitate
Efforts to Defraud TRICARE
TMA cannot ensure that payments reach the legitimate beneficiaries if they do not
require WPS to verify addresses before payment. In addition, sending a payment to the
wrong address may unintentionally facilitate efforts to defraud TRICARE. At a
minimum, failure to verify a discrepant address is a missed opportunity to identify a
potentially fraudulent billing scheme.

Verifying beneficiaries’ addresses before payment is a control that will help ensure that
checks for legitimate claims reach beneficiaries at the proper addresses. Address
verification would also provide beneficiaries the opportunity to identify potentially
fraudulent claims. However, TMA personnel should also pursue the use of EFT to pay
for beneficiaries’ claims, rather than checks through the Philippine postal service. To
determine if paying claims through EFT is feasible for retirees in the Philippines, we
asked the Defense Finance and Accounting Service (DFAS) how retirees and annuitants 2
in the Philippines receive their retirement payments. According to DFAS records,
95 percent of all Philippine retirees and annuitants voluntarily receive their retirement
payments through EFT. DFAS makes these payments to U.S. banks with offices in the
Philippines and to Philippine banks with offices in the United States.



2
    Annuitants are surviving military dependents who receive annuity benefits through DFAS.

                                                     10 

While TRICARE policy does not currently allow EFT payments to the Philippines, TMA
personnel are in the process of eliminating the EFT restriction for medical providers
requesting payment by EFT. This is an important step towards eliminating mail fraud
involving TRICARE’s claims payment checks in the Philippines. Since 95 percent of the
Philippine beneficiaries receiving a retirement annuity voluntarily receive their payments
through EFT, TMA personnel should consider coordinating with DFAS and providing the
retirees receiving their retirement pay through EFT the option to receive their TRICARE
claims payments through EFT.

In addition to helping solve beneficiary address issues, the use of EFT would also help
prevent another mail fraud scheme in the Philippines identified by DCIS and postal
inspectors. DCIS and the U.S. Postal Inspection Service initiated investigations
involving the theft of legitimate TRICARE checks and the submission of false claims in
                                             the name of legitimate TRICARE
    Paying beneficiaries’ claims through     beneficiaries. In this scheme, suspects used
    EFT will help eliminate the potential    fictitious addresses as flags to the postal
   for checks to be lost, stolen, or sent to workers to steal checks. Individuals
            fraudulent addresses.            recruited beneficiaries to sign false claims
                                             with fictitious addresses. Philippine postal
workers involved in the fraud then intercepted the reimbursement checks. Paying
beneficiaries’ claims through EFT will help eliminate the potential for checks to be lost,
stolen, or sent to fraudulent addresses.

TMA Should Establish Procedures to Educate Medical
Providers on Proper Procedures for Filing Claims
In addition to requiring beneficiary address verification, educating medical providers on
the proper procedures for filing claims would also improve the medical claims payment
process by improving the quality of the claims. Medical providers should be given an
outline of claims processing procedures, along with resources for obtaining additional
information, and should be required to provide signature confirmation that they have
been educated on proper procedures for filing medical claims.

During a January 2010 trip to the Philippines, DCIS investigators and DoD IG auditors
interviewed several providers who claimed to be confused or unaware of TRICARE’s
administrative requirements for filing medical claims. Some providers reported they
sought guidance through the TRICARE Web site and the TRICARE customer service
telephone line. Those providers reported that the Web site was often confusing to
understand and to navigate. Additionally, they stated that the WPS customer service staff
would often refer them to the TRICARE Web site. These providers and others inquired
about the possibility of TMA providing training in the Philippines on submitting claims
addressing what is required, what is and is not reimbursable, and other matters.

Obtaining signature conformation that providers have been educated would provide
investigators with another tool to help prove criminal intent. Without signature
confirmation that providers have been educated, it is more difficult for law enforcement
personnel and U.S. Attorney’s Office personnel to prove criminal intent when potentially

                                            11 

fraudulent claims are submitted for payment. Providers can assert that they did not know
proper procedures for submitting claims, and it is difficult to prove otherwise without
                                              documenting provider education. As an
   Without signature confirmation . . . it    example, several outpatient providers
    is more difficult for law enforcement     located in buildings adjacent to large
    personnel and U.S. Attorney’s Office      medical facilities used the beds, equipment,
      personnel to prove criminal intent      and services of the larger facilities and paid
   when potentially fraudulent claims are     them directly. The outpatient providers then
           submitted for payment.             improperly submitted the claims to
                                              TRICARE for reimbursement. As DCIS
personnel pointed out, law enforcement cannot levy criminal charges because there is no
proof of intent to commit fraud. Proving criminal intent to defraud TRICARE has
become increasingly challenging in recent years, particularly in the Philippines. For nine
investigative case reports that we reviewed that DCIS closed, six of the cases were closed
because DCIS personnel felt that the issues lacked strong fraud indicators. Signature
confirmation that providers were educated on proper procedures for submitting medical
claims would give investigators evidence that potentially fraudulent claims were
knowingly submitted.

TMA Presence in the Philippines Would Be Beneficial
While the U.S. Military retiree and dependent population in the Philippines is one of the
largest overseas, there is no TMA presence to support the Philippine beneficiary
population. Due to the absence of TMA resources in the Philippines, TRICARE
beneficiaries must rely on phone calls and internet searches for information. Establishing
a small TMA presence in the Philippines would provide an opportunity for TMA to
educate both providers and beneficiaries. Beneficiaries would have a better outlet for
resolving medical claim discrepancies and a direct means for reporting suspected
fraudulent claims. In addition, having a TMA presence would also allow for more
frequent oversight of the certification process as discussed in Finding A of this report.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised Recommendation B.1 to clarify that we
are only referring to the first claim from each beneficiary and any additional claims for
which the address on the claim is different from the address in the Sponsor Patient
Information Update System.

B. We recommend that the Deputy Director, TRICARE Management Activity:

       1. Establish procedures in the TRICARE Overseas Program contract that
require the claims processing contractor to:



                                            12 

              a. Verify beneficiary address on the initial claim for each beneficiary
to the address in Defense Enrollment Eligibility Reporting System before
establishing an address in the Sponsor Patient Information Update System

               b. Once an address has been established in the Sponsor Patient
Information Update System, match beneficiary addresses on claims with the address
in the system. If the address on the claim is different from the address in the
Sponsor Patient Information Update System, and the new address cannot be
confirmed in Defense Enrollment Eligibility Reporting System, require the
beneficiary to confirm the change in address and update Defense Enrollment
Eligibility Reporting System before paying the claim.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) stated that our recommendation to
verify beneficiaries’ addresses prior to claims payment would result in less timely claims
reimbursement, would increase the cost of the TOP contract, and would negatively affect
beneficiary satisfaction because of the increased time it would take to pay claims. The
Assistant Secretary of Defense (Health Affairs) stated that, because beneficiary claims
are usually filed soon after services were provided, the address on the claim would most
likely be the beneficiary’s most recent address. See page 18 for full text of the
management comments.

Our Response
The Assistant Secretary of Defense (Health Affairs) comments are not responsive. We
agree that the addresses on legitimate beneficiary claims are likely correct. However,
these comments do not address the issue of fraudulent claims. In addition to the
examples provided in this report, DCIS and U.S. Postal Service investigations maintain
the prevalence of mail fraud in the Philippines dating back to 2005. In one case alone
involving individuals using false addresses and stealing checks, the loss to the U.S.
Government exceeded $1.4 million. We have revised the recommendation to clearly
state that we are only recommending address verification when the first claim is received
from a beneficiary and the address is set up in the Sponsor Patient Information Update
System, and later only if there is a discrepancy. The contractor could perform the initial
address verification while checking DEERS for TRICARE eligibility. At that time, if
there is a discrepancy, it can be corrected. After the initial verification, addresses only
need to be verified with DEERS when there is a discrepancy between the address on the
claim and the address in the Sponsor Patient Information Update System. A verification
of changed addresses is a control designed to prevent the mailing of claim checks to
fraudulent addresses and to ensure that the intended beneficiaries receive their payments.
We request that the Assistant Secretary of Defense (Health Affairs) reconsider his
position on the recommendation and provide comments on the final report.

       2. Revise TRICARE Policy to require the overseas claims processing
contractor to provide the option for beneficiaries to receive their claims payment
through Electronic Fund Transfer.


                                            13 

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) expressed concern that the EFT
transaction fees could be higher than the reimbursement amount, and these fees are not
reimbursable by TMA. He stated that utilization would, therefore, most likely be very
low. The Assistant Secretary of Defense (Health Affairs) further stated that, because the
TOP contract does not allow for beneficiary EFT payments, the contract would have to
be modified, resulting in additional costs to TMA. See page 18 for full text of the
management comments.

Our Response
The Assistant Secretary of Defense (Health Affairs) comments are not responsive. As
stated in our response to B.1, mail fraud in the Philippines is widespread. According to
DFAS records, 95 percent of the retirees in the Philippines have voluntarily chosen to
receive their retirement annuities through EFT. Their retirement annuities are deposited
into U.S. banks, and the retirees incur whatever fees are imposed to transfer money to the
Philippines. If beneficiaries have chosen to receive retirement payments through EFT,
despite the fee, they may choose the same for claims reimbursements. Also, in a prior
meeting, TRICARE Area Office Pacific personnel told us that Philippine beneficiaries
were asking for the option to receive their claim payments through EFT. Our
recommendation is designed to give the beneficiary the option of receiving their claim
payments through EFT, rather than requiring them to do so. In addition, if EFTs are
allowed and used, it will reduce the number of address verifications conducted as
recommended in Recommendation B.1. We request that the Assistant Secretary of
Defense (Health Affairs) reconsider his position on the recommendation and provide
comments on the final report.

       3. Establish procedures to ensure that medical providers in the Philippines
are educated on the proper procedures for filing medical claims and obtain
signature confirmation from the providers of the training received.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) stated that, when the contractor
performs provider education as noted in the Assistant Secretary of Defense (Health
Affairs) comments to Recommendation A.1, the contractor will require the providers to
certify that they fully understand the requirements in Title 32, Code of Federal
Regulations, Section 199.9 and the TRICARE Operations Manual. See page 18 for full
text of the management comments.

Our Response
The comments of the Assistant Secretary of Defense (Health Affairs) are responsive, and
no further comments are required.

       4. Consider establishing a TRICARE presence in the Philippines to service
military retirees and their dependents.



                                            14 

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary of Defense (Health Affairs) stated that TMA is in the process of
finding a location for an office in Manila, Philippines, to assist beneficiaries living there.
He further stated that TMA will staff the office with a government employee and is in the
process of advertising the position. See page 18 for full text of the management
comments.

Our Response
The comments of the Assistant Secretary of Defense (Health Affairs) are responsive, and
no further comments are required.




                                             15 

Appendix. Scope and Methodology
We conducted this audit from July 2009 through June 2011 as a result of internal control
weaknesses identified while providing audit support for the DCIS and the U.S. Attorney’s
Office, Western District of Wisconsin. We began collecting the data used for the report
in March 2008 while we were assisting with the investigation. We conducted this audit
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
The evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

We reviewed 72 non-TGRO Network provider certification packages received from the
contracting officer, which we judgmentally selected for use in support of the DCIS
investigation. These packages represented all the available certifications for 37 unique
providers, as of our requests in May 2008 and July 2008. We met with TMA personnel
in Falls Church, Virginia, and Aurora, Colorado, to gather information regarding TMA
controls over the Philippine “Onsite Verification and Provider Credentialing” process.
We contacted TAO-Pacific personnel to determine whether they performed reviews of
the certification packages generated by the Philippine “Onsite Verification and Provider
Credentialing” process to ensure certifications are complete and performed in accordance
with the TGRO Contract. We visited International SOS, Manila, the contractor
responsible for certifying non-TGRO medical providers in the Philippines.

We met with representatives from the Philippine Department of Health, Philippine
Professional Regulation Commission, PhilHealth, and the Philippine Securities and
Exchange Commission to determine procedures for licensing and sanctioning medical
providers. We also met with the Department of Veterans Affairs officials in the
Philippines to discuss their procedures for obtaining and certifying qualified medical
providers for veterans in the Philippines.

We reviewed public laws, DoD policies, TRICARE regulations and procedure manuals.
Specifically we reviewed 32 U.S.C. § 199.6 [2005]; the August 2002 versions of the
TRICARE Operations Manual 6010.51-M, Policy Manual 6010.54-M, and Systems
Manual 7950.1-M, and the respective February 2008 revisions. We also reviewed the
TRICARE Global Remote Oversight Plan, August 2004. We reviewed Philippine laws
governing the licensure of Philippine Medical providers and the implementation of the
Philippine National Health Insurance Program. We reviewed case summaries provided
by DCIS dealing with fraud issues in the Philippines. We also reviewed supporting
documentation provided by TMA and WPS personnel to include contract
DASW01-03-D-0007/H94002-04-D-0004, valued at $24.5 million.

Use of Computer-Processed Data
We used computer generated data files provided by the Defense Finance and Accounting
Service extracted from the DFAS Retired and Casualty Pay System to determine whether
                                           16 

retirees in the Philippines receive their payments by check or EFT. We used DEERS to
roughly estimate the number of TRICARE beneficiaries located overseas. Because this
information was not significant to the overall audit objective and report findings, we did
not formally assess the reliability of the data.

Prior Coverage
No prior coverage has been conducted on the Philippine Onsite Verification and Provider
Credentialing process during the last 5 years. DoD IG has issued reports addressing
overseas controls for third-party billing agencies and controls over the TRICARE
overseas health care program. Unrestricted DoD IG reports can be accessed at
http://www.DoD IG.mil/audit/reports.


DoD IG
DoD IG Report No. D-2008-045, “Controls Over the TRICARE Overseas Healthcare
      Program,” February 7, 2008

DoD IG Report No. D-2006-051, “TRICARE Overseas Controls Over Third Party
      Billing Agencies and Supplemental Insurance Plans Report,” February 10, 2006




                                            17 

Assistant Secretary of Defense (Health Affairs) Comments






                               THE ASSISTANT SECRETARY OF DEFENSE
                                              1200 DEFENSE PENTAGON
                                            WASIlINGTON, DC 20)01·1200

                                                                                                JUL 13 20\1
    HEALTH AfFAIRS

         MEMORANOUM FOR DEPARTMENT OF DEFENSE r SPECTOR GE ERAL
                         PROGRAM DIRECTOR, READINESS, OPERATIO S, AND
                         SU PPO RT

         SUBJECT: Departme nt of Defense Inspector General Draft Report, " Improvements Needed in
                  Procedures for Certifying Medical Prov iders and Processing and Pay ing Medica l
                  Claims in the Phi lippines," Project o. D2009-DOOOLF-0261.000

               This is the Departme nt's response to the Department of Defense Inspector Genera l Draft
         Report on Project No. D2009-0000 LF-026J, "Im provemen ts ceded in Procedures for
         Certify ing Medical Providers and Processing and Paying Medical Claims in the Philippines ,"

               Thank you fo r the opportunity to review and comment on the Draft Report. Comments to
         the recommendations are attached . We have already taken action on several of the
         recommendations cited in the report. We do have concerns regarding your recommendations for
         the processi ng and paying of cla ims , and our commentS in this regard are noted in the
         attachment.




         Attachments :
         As stated




                                                                     18
                 DEPARTM ENT OF DEFENSE INS PECTO R GENERAL
                               DRAFT REPORT
                        PROJECT NO. D2009-DOOOLF-0261

 " lmproveme nlS Needed in Procedures for Certifyin g Medical Provid ers a nd Processi ng
                    and Paying Medical C laims in Ih e PhiUppines"

                       RESPONSE TO THE RECOMM ENDATlO NS

RECOMM EN DATION #A: We recommend that the Deputy Director ofTRJCARE
Management Activity (TMA);

1. Establish oversight procedu res to ensure that tile TRICARE Global Remote Overseas
   contractor perfonns certifications consistent with the contract, Philippine law, and at a
   minimum:

   3. Verifies that providers have the necessary equipment, supplies, and staff;
   b. Identifies the se rvices that a medical facility is licensed to provide; and
   c. Obta ins currenl copies of Department of Health licenses, Mayor 's permits, local permits,
      or Professional Regula tion Commission licenses .

2. Require the TRlCARE Area Office· Pacific to perform quality assurance testing on the
   Ph ilippine provider certifi cation packages on a regularly scheduled basis.

RESPONSE:

I. TMA recognizes the importance of im provi ng the certification process in the Philippines.
   On January 31 , 201 1, TMA issued a modification to the TRlCARE Overseas Program (TOP)
   contract to improve the certifica tion process in the Philippines. The three areas of changes
   are: provid er education, obtaining additional provider information, and certifica tion records
   automation.

   Specifica lly, the certification of Phi lippine providers shall include licensing issues or
   sanction s imposed by PhilHealth, all current or former TRlCARE facili ties the provider is
   associated with, identification of ownership o f the medical facility bei ng certified,
   identification of providers who have provided health care services under a different name, the
   capabi lity of the provider/ facility, and the provider's specialty and license to operate a
   pharmacy. The TOP contractor shal l provide authorized Government personnel unlimited
   off-site electronic access to the certification documents. Also, the contractor shall perform
   provider education as part of the certification process .

2. TMA has established regular site visits to th e contractor's office in Manila, Philippi nes, to
   cond uct perfonnance reviews of the certificati on fil es. The TMA sta fr completed a review in
   May 2011. The stafT reviewed a random sample offi les fo r nearly 100 individual and
   institutiona l providers certified or recert ifi ed from September 20 I 0 thru April 20 I I. The
   staff's review of the contractor's Philippines certificat ion effort was found to be compliant
   w ith con tract requ irements. The file contents were sound, wi th documentation evidenci ng




                                                              19
                                                                                                       Final Report 

                                                                                                        Reference





   thaI the requiremen ts of the certification process are being met.

RECOMMENDATION #,8 : We recommend that the Deputy Director ofTMA:

I. Establ ish procedures in the TOP contract that requi re the c laims process ing contractor to:

 a. Verify beneficiaries' addresses on each claim to the address in the Defense Enrollme nt
    Eligibi li ty Reporting System (DEERS) before establishing an address in the Sponsor
    Patient Information Update System .

 b. Once an address has been established in the Sponsor Patient Information Update System,
    match bene fi ciaries' addresses on claims with the address in the system. If the address on
    the claim is different from the address in the Sponsor Patient information Upda te System,
    and the new add ress carulOl be confirmed in DEERS, require the beneficiary to confinn the
    change in address and update DEERS before paying the claim.

2. Revise TRJ CARE pol icy to require the overseas claims process ing contractor to provide the
   option for benefi ciaries to receive their cl aims payment through Elecrronic Fund Transfer
   (EFT).

                              Click to add JPEG file
3. Establish procedu res to ensure that medical providers in the Philippines are educated on the
   proper procedures for fi ling medical claims and ob tain signature confinnation from the
   providers of the training received.

4. Consider establishing a TRJCARE presence in the Philippines to service military retirees
   and thei r dependents.

RESPONSE :

I . The Inspector General's recommendation to verify beneficiaries ' addresses before paying
    clai ms would adversely impact timeliness of claims reimbursemen t, increase the COSIIO the
                                                                                                     Revised
    TOP contract, and have a negative impact on beneficiary satisfaction because of induced          Recommendation
    claims payment delays. Claims received from beneficiaries are typically filed with the           B.1
    claims processor very soon after the services were provided, and will most lik ely contain the
    most recent address of the beneficiary .

2. The concern is that the cost of the EFT transaction fee may be higher than the reimbursement
    to the beneficiary. The TOP contract does not allow for beneficiary EFT payments. The
   con tract would require modification, with associated costs 10 implement such a change, and




                                                  2




                                                               20
   uti lizatio n would most like ly be very low due to the transac tion fees. T he transaction fees are
   not reimbursable by T MA .

3. As part of the contractor perfonni ng provider education as noted in Finding A I, the
   contrac tor shall require the providers 10 certi fy that they fully understand the requirements in
   Tille 32, Code of Federal Regulations, Sec tion 199.9 and the T RJ CARE Operations Manua l.

4. TMA is in th e process of se lecting a location for a TRlCARE Sa tellite Office in Manila,
   Phil ippines. to provide assista nce to mil itary retirees and their dependents residing there.
   T he ortice will be staffed by a T MA Government employee, and TMA is currently in the
   process of advertising thai pos ition .




                                                  J




                                                                21
